                                      u.s. DEPARTMENT OF EDUCATION
                                                    THE WANAMAKER BUILDING 

                                                100 PENN SQUARE EAST, SUITE 502 

                                                      PHILADELPHIA, PA 19107 




    OFFICE OF
INSPECTOR GENERAL                                           DEC      3 2003
  Memorandum

  TO: 	              Jack Martin 

                     Chief Financial Officer 

                     Office of the Chief Financial Officer 


  FROM: 	            Bernard Tadley ~().u 

                     Regional Inspector General for AJdit 


  SUBJECT: 	 Final Audit Report
             Audit of Raytheon's Administration of the National Student Loan Data System
             Contract
             Control Number ED-OJG/(A03-D0011)

  You have bcen designated as the action official responsible for the resolution of the findings and
  recommendations in the attached final report. We have also provided a copy to the auditee and
  to your Audit Liaison Officer.

  The Office of Inspector General is required to review and approve your proposed Program
  Determination Letter (PDL) and the Audit Clearance Document (ACD) before the PDL is
  forwarded to the auditee. Please provide these documents for review, electronically if you wish
  or by mail, to:

                              Bernard Tadley
                              Regional Inspector General for Audit
                              U.S. Department of Education
                                        of
                              Office Inspector General
                              The Wanamaker Building
                              100 Penn Square East, Suite 502
                              Philadelphia, P A 19107

  In accordance with the Inspector General Act of 1978, as amended, the Office of Inspector
  General is required to report to Congress twice a year on the number of audits unresolved. In
  addition, any report unresolved after 180 days from the date of issuance will be shown as
  oven.lue ill our rcp0l1s to Congress.

  In accordance "vith the Freedom ofInformation Act (5 U.S.c. §552), reports issued by the Office
  ofInspector General are available to members of the press and general public to the extent
  information contained therein is not subject to exemptions in the Act.

  If you have any questions, please contact me at (215) 656-6279.

  Attachment
          ·Our Mission Is to Ensure Equal Access to Education and to Promote Educational Excellence Throughout the Nation"
                                   u.s. DEPARTMENT OF EDUCATION
                                                THE WANAMAKER BUILDING 

                                            100 PENN SQUARE EAST, SUITE 502 

                                                 PHILADELPHIA, PA 19107 




     OFFICE OF
INSPECTOR GENERAL                                       DEC      3 2003

                                                                                               ED-OIG/A03-DOOll
     Nishon R. Evans
     Manager, Govemment Compliance
     Raytheon Company
     7700 Arlington Boulevard
     Falls Church, V A 22042-2900

     Dear Mr. Evans:

     This Final Audit Report (Control Number ED-OIG/A03-DOOll) presents the results of our
     audit of Raytheon Company's administration of the National Student Loan Data System
     (NSLDS) contract (Contract No. PM93015001). The objective of our audit was to
     detennine if costs charged and deliverables provided by Raytheon Company (Raytheon)
     during the period July 1, 2000, through December 31, 2002, were in accordance with the
     terms of the contract and with applicable federal laws and regulations.

     We provided Raytheon with point sheets for each finding. On June 26, 2003, Raytheon
     provided us with a written response for Finding No.1 and an oral response for Finding No.
     2. Because Raytheon provided comments on the point sheets and was in agreement with
     the findings, we did not request comments on a Draft Audit Report. We summarized
     Raytheon's responses after each finding, and provided a copy of Raytheon's written
     response for Finding No.1 as an attachment to this report.

                                                  AUDIT RESULTS

     Except for issues discussed in the findings, we found that Raytheon generally charged costs
     and provided deliverables during the audit period in accordance with the terms of the
     contract and with applicable federal laws and regulations. The exceptions discussed in our
     findings include incorrect cost estimates in Raytheon's NSLDS Business Proposals and a
     billing error that resulted in the contract's being charged a total of $78,905 in unsupported
     direct labor costs.

     Finding No.1 	 Raytheon's Business Proposal Preparation Procedures Need
                    Improvement

     As part of the process for obtaining NSLDS contract funding, Raytheon submits Business
     Proposals to thc U.S. Department of Education (Department). Our review of Raytheon's
     NSLDS Business Proposals dated June 22, 2000, and December 12, 2001, for the periods
     July 1,2000, through December 31, 2001, and January 1,2002, through September 30,




       ·Our Mission is to Ensure Equal Acee" to Education and to Promote Educational Excellence Throughout the Nation"
Audit of Raytheon's Administration of the NSLDS Contract 	                                ED-OIG/A03-DOOII



2003, respectively, revealed several erroneous cost estimates. Specifically, \ve found that
Raytheon billed the Department $73,889 in unsupported costs, over-proposed direct labor
costs, and under-proposed direct labor costs. Although we did not determine a specific
cause for these errors, it appears that Raytheon did not have adequate procedures in place
to ensure the mathematical accuracy of its NSLDS Business Proposals.

Unsupported Direct Labor Costs

Our review disclosed that Raytheon over-billed the Department for the following NSLDS
Schedule A line items: I

• 	 Hardware/Software MaintenancelEnhancement Support (Contract Line Item Number
    26 [CLIN 26]), and
• 	 Customer Support (CLIN 25).

For the period July 1, 2000, through December 31, 200 1, Raytheon over-billed the
Department $61,433 in labor cost for the Development Database Administrator (DBA)
position for CLIN 26. Also, for the period January 1,2002, through September 30, 2002,
Raytheon over-billed the Department $12,456 in labor cost for the InfoCenter Manager
position for CLIN 25.

CLIN 26 - Hardware/Software Maintenance/Enhancement Support

During the period July 1, 2000, through December 31, 200 1, Raytheon billed the
Department $370,566 in CLIN 26 labor cost for the Development DBA position based on a
salary rate through General and Administrative expense (G&A) of$122.39 per hour. The
salary rate through G&A for the Development DBA position should have been $102.07 per
hour, based on the documentation supporting the rate build contained in Raytheon's
NSLDS Business proposal dated June 22, 2000. CLIN 26 Development DBA costs should
have been calculated as follows:

 Monthly    Rate Through        Monthly      Facilities Capital Cost      Fee                     Extended
  Hours         G&A               Cost         of Money (FCCM)           10.5%         Price      Cost (xI8)
   152        $102.07          $15,514.64            $30.40            $1,629.04    $17,174.08   $309,133.44

CLlN 25 - Customer Support

During the period January 1, 2002, through September 30, 2002, Raytheon billed the
Department $127,743 in CLIN 25 labor cost for the InfoCenter Manager position based on
a salary rate through G&A of $84.28 per hour. The salary rate through G&A for the
InfoCenter Manager position should have been $76.04 per hour, hased on the


1 Services provided under the NSI J)S contrilct ilre billed according to the type of cost, using Schedules A and
C. Schedule A costs are ftxed monthly charges for maintenance, operations, technical support, systems
software, documentation development, and general support for the system. Schedule C costs arc billed as
time and materials charges for task order enhancements to the system.



                                                       2
    ~A~u~di~t~of~R~a~y~t1~lc=o~n'~s~A~d~ln~in~i=st~rfl=ti=o=n~o~ft=h~c~N=S=L=D~S~C~o~n=tr=ac~t__________________ EQ·OIGIAOJ-pOOI!



    documentation supporting the rate build contained in Raytheon's NSLDS Business
    proposal dated December 12,2001. CLIN 25 InfoCenter Manager costs should have been
    calculated as follows:

      Monthly          Rate Through      Monthly                                    Fee                                               Extended
       IIours             G&A              Cost                 FCCM                10.5%                              Price          Cost (x9)
        152               $76.04        $11,558.08              $38.00            $1,213.60                         $12,809.68       $115,287.12

    Under Federal Acquisition Regulation (FAR) 31.20 1-2(d), "A contractor is responsible for
    accounting for costs appropriately and for maintaining records, including supporting
    documentation, adequate to demonstrate that costs claimed have been incurred (and] are
    allocable to the contract .... The contracting officer may disallow all or part of a claimed
    cost which is inadequately supported."

    Under FAR 52.215-10(a)(3), "If any price, including profit or fee, negotiated in connection
    with this contract, or any cost reimbursable under this contract, was increased by any
    significant amount because ... [a]ny of these parties [the contractor, subcontractor, or
    prospective subcontractor] furnished data of any description that were not accurate, the
    price or cost shall be reduced accordingly and the contract shall be modified to reflect the
    reduction." FAR 52.215-10 was incorporated as a clause to the NSLDS contract on May 6,
    1998, and was in effect throughout our audit period.

     Over-Proposed Direct Labor Costs

    In its NSLDS Business Proposal, dated December 12,2001, Raytheon proposed to use
    contract labor for the Schedule C Trainer position during the period October 1, 2002,
    through Septemher 30, )003. Raytheon's Business Manager for Enterprise Information
    Systems informed us that it is Raytheon's practice not to apply fringe benefit costs to
    positions proposed to be filled by contract employees. Our review disclosed that the
    Schedule C Trainer position's hourly rate through price for the period October 1,2002,
    through September 30,2003, was over-proposed by $59.59. However, we noted no
    monetary effect related to this error, because, as of December 31, 2002, Raytheon had not
    billed the Department for any hours worked on Schedule C tasks by the Trainer.

    We found that Raytheon applied nine months of fringe benefits (37.6% of the base labor
    rate) to the Schedule C Trainer position's proposed hourly base rate, resulting ill a proposed
    hourly rate through priee of $2] 8.99.. Raytheon should have proposed the Schedule C
    Trainer position, without fringe benefits, at an hourly rate through price of $159040, as
    calculated below:

 TRAINER                                                                         - ..-.-.----   .....-.---.- •..­                                        .......



                                    RATE                                 G&A       RATE               rCCM                       RATE      FEE     RATE
              BASE      FRINGE      TIIRU     OVERHEAD          G&A       @        THRU           LABOR ­ 0.00613                TIIRU      @      TIIRU
  NAME        RATE      @O.O%      FRINGE    (0111) @ 25.80/.   BASE     [0.0%     G&A             G&A . 0.00038                 FCCM      10.5%   PRICE

CONTRACTOR    103.79                103.79        26.7R         130.57   13.06     $143.62                          0.69         144.3 [   [S.OR   $159.40




                                                                    3

"\--':I<iiL2fBaythcon's Administration ofthc NSLDS Contract               ED-OIG/A.D3-DOOll



Under FAR 31.205-6(a)(3), compensation for personal services "must be based upon and
conform to the terms and conditions of the contractor's established compensation plan or
practice followed so consistently as to imply, in effect, an agreement to make the
payment." FAR 52.215-1 0(a)(3), as cited previously for Unsupported Direct Labor Costs,
is also applicable to this finding.

Under-Proposed Direct Labor Costs

Our review revealed that the hourly labor rates for the following positions were under­
proposed:

•   Systems Analyst (for the period July 1, 2000, through December 31, 2001)
•   Development DBA (for the period January 1,2002, through September 30,2003)

Systems Analyst

Raytheon has established seven labor category codes (LCCs), El through E7, for its
exempt employees and four LCCs, Nt through N4, for its non-exempt employees. Exempt
employees perform a defined function or job for a salary, and their performance is expected
to occasionally involve more than 40 hours per week. Non-exempt employees are paid for
all hours worked, in accordance with applicable federal and state laws. They receive
compensated overtime for hours worked in excess of 40 hours per week. Each labor
position (for example, Engineer J) is assigned an LCC depending on its requirements. The
Defense Contracts Management Agency (DCMA) approves Raytheon's proposed direct
labor rates for each LCC, for bidding and billing purposes.

In order to determine the proposed composite hourly base labor rate tor each LCC tor the
period July 1,2000, through December 31, 2001, Raytheon calculated the weighted
average of its Falls Church, Virginia, office's DCMA proposed forward pricing LCC
hourly rates for the contract period. This was accomplished by

    1. Multiplying each proposed LCC's hourly rate for calendar year 2000 by 6,
    2. Multiplying each proposed LCC' s hourly rate for calendar year 2001 by 12, and
    3. Dividing the sum of steps 1 and 2, above, by 18.

When calculating the Systems Analyst (LCC E3) position's proposed composite hourly
base rate for the period July 1, 2000, through December 31,2001, Raytheon used $30.11 as
both the 2000 and 2001 DCMA proposed E3 hourly rates, resulting in an hourly rate
through price of$85.19. The Systems Analyst's DCMA proposed 2001 hourly rate for an
E3 should have been $31.46, resulting in an E3 composite hourly base rate of $31.01, and
an homly ratc tlnollgh price or$85.88, as calclliaku below.




                                                    4
        Audit of Raytheon's        Administrati~n_ofthe          NSLDS Contract_ _ _ _ _ _ _ _ _-=ED-OIG/A03-DOOI1


 SYSTEMS
 ANALYST

              2000        2001                          RATE                                      RATE            FCCM           RATE       FlOE            RATE
              BASE        BASE      BASE      FRINGE@   THRU       O/ll@     G&A      G&A@        TIIRlJ    LABOR· 0.00220667   TIIRlJ       @              TlIRU
  NAME        RATE      RATE        RATE        53.7%   FRINGE      22.2%    BASE      11.53%      G&A       G&A·0.00033667     FCCM       I O.5~';1       PRICE



   E3         30.11   ;3);46>' /31'.01:£1;;     16.65    47.66      10.58    58.24      6.72    $ 64.96               0.09       65.05      6.83       $    ". 71i7
   E4         34.49       36.04     35.52       19.08    54.60      12.12    66.72      7.70    $ 7442                0.10       74.52      7.82       $      8233

'ONTRACTOR    67.01       69.36     68,57                68.57      15.22    83,80      9.66    $ 93.46               0,18       93.64      981        $     103.45

                                                                                     AVERAGE, $     77.61                                AVERAGE: $          '85.8$

        Consequently, in its NSLDS Business Proposal, dated June 22, 2000, for the period July 1,
        2000, through December 31, 2001, the Systems Analyst position's proposed Schedule A
        and C hourly rate through price of $85.19 is $0.69 less than the hourly rate through price of
        $85.88 Raytheon should have proposed, using the composite E3 rate of $31.0 1.

        Development DBA

        In its NSLDS Business Proposal, dated December 12,2001, Raytheon did not use the
        correct overhead rate when calculating the Development DBA position's Schedule C hourly
        rate through price. The DCMA approves Raytheon's Indirect Rate Structures for bidding
        and billing purposes. According to the DCMA's Comprehensive Rate Letter dated
        November 16,2001, Raytheon's negotiated overhead rate for both calendar years 2002 and
        2003 is 25.8 percent. For the periods January 1,2002, through September 30,2002, and
        October 1, 2002, through September 30, 2003, Raytheon erroneously used an overhead rate
        of 22.1 percent, resulting in hourly rates through price for the Schedule C Development
        DBA position of$157.34 and $161.06, respectively. Using the negotiated DCMA
        overhead rate of25.8 percent, the Schedule C Development DBA hourly rates through
        price should have been calculated as follows:

        Schcuuk C Dcvdopmcut DBA fur thc pcriou January 1, 2002, through Scptcmber 30, 2002

                                              RATE                                         RATE               rcCM            RATE        FEE              RATE
                 BASE       FRINGE@           THRU      O/ll@       G&A      G&A@          TIIRU      LABOR - 0.00604         TIIRU        @               THRU
   NAME          RATE             0.0%      FRINGE      25.8%       BASE      9.9%         G&A             G&A - 0.00038      FCCM        10.5%            PRICE


CONTRACTOR       105.65                       10565     27.26       132.91    13.16       $146.07              0.69           146.76      15.34        $ 162.10


        Schedule C Development DBA for the period October 1,2002, through September 30, 2003

                                              RATE                                         RATE               fCCM            RATE        FEE              RATE
                 BASE       FRINGE@           TIIRU     O/ll@       G&A      G&A@          TIIRU      LABOR - 0.00611         THRLJ        @               TIIRU
   NAME          RATE             0.0%      fRINGE      25.8%       BASE      0.10%        G&A             G&A - 0.00038      FCCM        10.5%            PRICE


CONTRACTOR       108.07                       108.07    27.88       135.95    13.60       $149.55              0.71           150.26      15.70        $ 165.96
                                                                                                                                                                .   -­




                                                                             5

Audit of Raytheon's Administration   oftl~   N§LQS Contract 	             ED-OICJ!A03-DOO 11



Consequently, in its NSLDS Business Proposal, dated December 12,2001, Raytheon's
proposed hourly rate through price for the Schedule C Development DBA position for the
period

• 	 January 1,2002, through September 30, 2002, is $4.76 less than the hourly rate through
    price we calculated.

• 	 October 1,2002, through September 30, 2003, is $4.90 less than the hourly rate through
    price we calculated.

Recommendations:

We recommend that the Chief Financial Officer (CFO) require Raytheon to

1.1 	 Refund to the Department $73,889 for unsupported CLIN 26 Development DBA and
      CLIN 25 InfoCenter Manager direct labor costs paid by the Department during the
      period July 1, 2000, through September 30, 2002.

1.2 	 Correct the Trainer position's hourly rate through price under Schedule C for the
      period October 1,2002, through September 30, 2003, by removing the fringe costs
      applied to the contractor's hourly base rate. Refund to the Department $59.59 per
      hour for any hours billed by Raytheon during this period for Schedule C Task Order
      work performed by the Trainer.

1.3 	 Implement policies and procedures to ensure the mathematical accuracy of any future
      Business Proposals submitted to the Department.

Raytheon's Reply

In general, Raytheon appears to concur with our findings and recommendations. Raytheon
states, "While not impossible, the size and complexity of [its] cost proposal worksheet
makes a 100% pre-submission audit extremely difficult." In response to individual
recommendations, Raytheon states the following:

• 	 Recommendation No. 1.1. Raytheon "agrees that clerical errors on the proposal
    spreadsheet resulted in a misstatement of estimated costs equal to the IG analysis of
    $73,888.83."                    .

• 	 Recommendation No. 1.2. Though it agrees that an error in pricing was made in its
    Business Proposal for the Trainer position, no action needs to be taken because
    Raytheon has never billed the Department for the Trainer position.




                                                      6

Audit ofRaythcon's Administration of the NSLDS Contrac""--t_ _ _ _ _ _ _ _-=E=D_-O=--=--=IG=-'--/:....:A-=-03=---=.=Dc..::O-=-O-'--'-11



• 	 Recommendation No. 1.3. Raytheon has already instituted changes in its software,
    pricing methodology and oversight that will eliminate the types of errors found in its
    NSLDS Business Proposals. Raytheon's reply describes the changes it has
    implemented.

OIG's Response

We have not made substantive changes to our recommendations. Though we agree that the
worksheet Raytheon used to develop its cost proposals was complex, and that ensuring
accuracy may be difficult, we would not agree that ensuring mathematical accuracy is
unnecessarily burdensome. Our responses to Raytheon's comments on Recommendations
1.2 and 1.3 follow:

• 	 Recommendation No. 1.2. The Schedule C Trainer position's improper hourly rate
    through price of $218.99 was in effect for the period October 1, 2002, through
    September 30, 2003. Raytheon asserts that it noted no monetary effect related to this
    error; therefore no action need be taken. Raytheon's comment was provided on June
    26, 2003, and does not cover the entire period during whieh the Department may have
    been improperly billed for hours worked on Schedule C tasks by the Trainer.

• 	 Recommendation No. 1.3. Raytheon's reply does not include sufficient details for us to
    understand whether its revised processes fully address our recommendation.

Finding No.2 Raytheon Over-Billed the Department for Labor Services

Raytheon over-billed the Department $5,016 in labor costs for a contract employee.
Contract labor employees submit manual timecards to their supervisors on a weekly basis.
The timecards are reviewed and signed by supervisory personnel and then forwarded to
Raytheon's Accounting Department for processing. During our review, we noted that one
contract employee, a Senior Systems Analyst, submitted two manual timecards dated for
the week ending June 8, 2001. Both timecards included charges for NSLDS Task Order
Number 53, one for 44 hours and the other for 36 hours. The week ending date on the
timecard with 36 hours was later corrected to June 15, 2001.

The 36 hours, totaling $5,016, were charged to the Department twice on Raytheon's
August 2001 NSLDS invoice. They were included in the 80 hours (44 hrs and 36 hrs)
                                                  8:
charged for the week ending June 2001, and also as a separate charge for the week
ending June 15, 2001.

FAR 31.20 1-2(d), as cited for Finding No.1, is applicable to this finding. The duplication
of labor charges appears to be an isolated im:idenl uue tu hUIIlaIl errur.

Recommendation:

2.1 	 We recommend that the CFO require Raytheon to refund the Department the $5,016
      duplicate payment.



                                                                  7

Raytheon's RepJy

In its oral comments, Raytheon concurred with this finding and recommendation.

                                           BACKGROUND

NSLDS was implemented in 1993, under Section 485B of the Higher Education Act of
1965, as amended (IlEA). NSLDS is the first comprehensive national database of
information about the federal financial aid history of recipients of student financial
assistance authorized under Title IV ofthe HEA. As the central database for all Title IV
student financial aid, NSLDS stores information about loans, grants, students, borrowers,
lenders, guaranty agencies, schools, and servicers. It provides an integrated view of Title
IV loans and grants during all stages of their life cycle, from aid approval through
disbursement, repayment, delinquency, and closure.

In January 1993, under full and open competition, the Department awarded Raytheon the
original NSLDS contract, which consisted of a base period (January 1993 - September
1994) and three option years. The last option year ended September 30, 1997. Under the
contract's Option to Extend Services Clause (FAR 52.217-8) (August 1989), the contract
with Raytheon was extended for three months, through December 31, 1997. Under the
same clause, the contract was extended with Raytheon for an additional three months,
through March 31, 1998. On December 2, 1997, a Commerce Business Daily notice
announced that due to the delay in issuing competitive Request for Proposals the
Department intended to extend the NSLDS contract with Raytheon, on a sole source basis,
until December 31, 1998. 2 To avoid a serious disruption in services provided, the NSLDS
contract was extended with Raytheon, on a sole source basis, from January 1, 1999,
through September 30, 2003. 3

                       OBJECTIVE, SCOPE AND METHODOLOGY

The objective of our audit was to determine if costs charged and deliverables provided by
Raytheon during the period July 1, 2000, through December 31, 2002, were in accordance
with the terms ofthe contract and with applicable federal laws and regulations.

To accomplish our audit objective

• 	 We interviewed the Department's Contracting Officer for the NSLDS contract
    regarding contract file documentation. We reviewed this documentation for

             Contract invoices submitted by Raytheon, for NSLDS, to the Department during
             thc period July 1, 2000, through December 31, 2002.



2 On February 16, 1998, NSLDS data center operations were transferred to the Virtual Data Center contractor, 

Computer Science Corporation. 

3 The NSLDS contract has been renewed monthly with Raytheon, on a sole source basis, through November 

30,2003. 



                                                     8

Audit of Raytheon's Administration of the NSLDS COlltI,-,o'a.::.:c(c--_ _ _ _ _ _ _-----=E=,Ic::...)-...::::.OIG/A03-DOOll



               Business and Technical Proposals submitted by Raytheon, for NSLDS, and
               approved by the Department for the period July 1, 2000, through December 31,
               2002.

               Modifications to the NSLDS contract during the period July 1, 2000, through
               December 31, 2002.

• 	 We reviewed the NSLDS contract and applicable sections of statutes, the FAR ,and
    other regulations.

• 	 We reviewed a random sample of four Schedule A invoices, with costs totaling
    $3,457,762, to determine if they were adequately supported and in accordance with the
    contract terms. Our sample was selected from the universe of30 Schedule A invoices,
    with costs totaling $26,048,085, that Raytheon submitted to the Department for services
    provided during the period July 1, 2000, through December 31, 2002.

• 	 We judgmcntally selected for review one task order (Task Order Number 53), with
    Schedule C invoices totaling $1,102,065. We selected this task order from a universe
    of 17 task orders, with Schedule C invoices totaling $10,583,013, that were billed to the
    Department for services provided during the period July I, 2000, through December 31,
    2002. We judgmentally selected Task Order Number 53 for review because the
    majority of its work was completed and billed within our review period, and because its
    Schedule C invoice cost represented approximately 10 percent of the total Schedule C
    invoice cost during our review period.

• 	 We obtained a computer file, provided by Raytheon, that contained the universe of
    direct labor transactions, including personnel, hours, and cost, that were charged to
    Task Order Number 53 during the period July 1,2000, through December 31, 2002.
    This universe was made up of 3 76 direct labor transactions. for 17 Raytheon personnel,
    totaling 7,469 hours and $1,097,537. We segregated this universe into two
    subpopulations:

                   The first subpopulation included 270 direct labor transactions, for 5
                   Raytheon persOlmc1, totaling 6,313 hours (85 percent of total hours charged
                   to Task Order Number 53) and $903,656 (82 percent of total labor cost
                   charged to Task Ord~r Number 53);

                   The second subpopulaliun included 106 direct labor transactions, for the
                   remaining 12 Raytheon personnel, totaling 1,156 hours (15 percent of total
                   hours charged to Task Order Number 53) and $193,881 (18 percent of total
                   labor cost charged to Task Order Number 53).

    To provide audit coverage for at least 20 percent (1494 hours) of the total hours billed
    for Task Order Number 53                                         '




                                                            9
AudiL<:>fRaytheon's AdministratiQn of the NS1QS Col1 tract 	                RD-OIG/A03-DOOII



                 From our first subpopulation, we revie\ved a random sample of 60 direct
                 labor transactions, totaling 1,281 hours (85 percent of the 1,505 t01a1 hours
                 reviewed) and $181,693, to determine if they were adequately supported and
                 in accordance with the contract ternlS.

                 From our second subpopulation, we reviewed a random sample of 12 direct
                 lahar transactions, totaling 224 hours (15 percent of the 1505 total hours
                 reviewed) and $36,493, to determine if they were adequately supported and
                 in accordance with the contract terms.

• 	 We reviewed the universe of other direct costs, totaling $4,528, included on Task Order
    Number 53 Schedule C invoices that Raytheon submitted to the Department for the
    period July 1,2000, through December 31,2002.

• 	 We interviewed the Department's Contracting Officer's Representative for the NSLDS
    contract regarding the deliverables for the NSLDS contract. We identified and
    reviewed all of the deliverables required by NSLDS contract Task Order Number 53.

• 	 We interviewed a DCMA Divisional Administrative Contracting Officer regarding
    DCMA's direct labor and indirect cost rate agreements with Raytheon's office in Falls
    Church, Virginia. We obtained and compared the DCMA rates applicable to this office
    and to the NSLDS contract for the period July 1, 2000, through December 31, 2002, to
    the rates used by Raytheon in its NSLDS Business Proposals.

• 	 We reviewed related Defense Contract Audit Agency (DCAA) audits of the Raytheon
    Company's Strategic Systems Business Unit (SSBU), which includes its Falls Church,
    Virginia office location.

• 	 We reviewed Raytheon's labor distribution and billing policies and procedures. We
    interviewed Raytheon personnel to obtain an understanding of these procedures.

To achieve our audit objective we relied, in part, on computer-processed data related to the
NSLDS contract contained in Raytheon's Jamis Job Cost System. We verified the
completeness of the data by comparing the cumulative hours and amounts invoiced by
Raytheon to the Department for NSLDS Task Order Number 53, during the period July 1,
2000 through December 31, 2002, to the cumulative hours and amounts that should have
been invoiced according to Raytheo'n's Jamis Job Cost data for Task Order Number 53.
We verified the authenticity of the Jamis Job Cost data for NSLDS Task Order Number 53
by comparing the data to source records. Based on these tests, we concluded that the data
were sufficiently reliable to be used in meeting the audit's objectives.

We performed on site fieldwork at Raytheon's Falls Church, Virginia, office from April 7,
2003, through April 15, 2003. We held an exit conference on June 26,2003. Our audit
was performed in accordance with generally accepted government auditing standards
appropriate to the scope of the audit work described above.




                                                    10
Audit of Raytheon's Administration of the NSLDS Contract                    ED-OIGI A03-f)OO Jl



                     STATKMKNT ON MANAGEMENT CONTROLS

As part of our review, we assessed the system of management controls, policies,
procedures and practices applicable to the scope of the audit. Our assessment was
performed to determine the level of control risk for determining the nature, extent, ~ll1d
timing of our substantive tests to accomplish the audit objective.

For the purpose of this report, we assessed and classified the significant controls into the
following categories:

        •   Labor distribution
        •   Billing

Because of inherent limitations, a study and evaluation made for the limited purpose
described above would not necessarily disclose all material weaknesses in the management
controls. We do not consider the minor billing issue described in Finding No.2 to be a
control weakness.

                               ADMINISTRATIVE MATTERS

If you have any additional comments or information that you believe may have a bearing
on the resolution of this audit, you should send them directly to the following Department
of Education official, who will consider them before taking final Departmental action on
this audit:

                         Mr. Jack Martin
                         Chief Financial Officer
                         Office of the Chief Financial Officer
                         Federal Building No.6, Rm. 4E313
                         400 Maryland Avenue, SW,
                         Washington, DC 20202

It is the policy of the U.S. Department of Education to expedite the resolution of audits by
initiating timely action on the findings and recommendations contained therein. Therefore,
receipt of your comments within 30 days would be greatly appreciated.

In accordance with the Freedom ofInfonnation Act (5 U.S.C. § 552), reports issued by the
Office ofInspector General are available to members of the press and general public to the
extent infoffilation contained therein is not subject to exemptions in the Act.




                                                 11 

Audit of Raytheon's Administration of the NSLDS Contract                      ED-OIG/A03-DOOII



We appreciate the cooperation given us in the review. Should you have any questions
concerning this report please contact Teri Lewis, Assistant Regional Inspector General for
Audit, or me at 215-656-6900.

                                                  Sincerely,

                                                  LW\i
                                                  Bernard Tadle) 

                                                  Regional Inspector General for Audit 


Attachment




                                                 12 

                                                         Attachment -Auditee's ncsponsc

[On June 26, 2003, via email, we received the following written response for Finding No.1
from Raytheon's NSLDS Contract Administrator]

Finding Number 1. Raytheon's Business Proposal Preparation Procedures Need
Improvement

The Inspector General's concerns center around three elements:
       A UnsuPPolicd Direct Labor Costs
       B. Over Proposed Direct Labor Costs
       C. Under-Proposed direct labor costs

In all three of the above instances, Raytheon's costs were developed using a complex Excel
worksheet. In two cases, the incorrect cell was referenced and in the other, a contract labor
entry was inserted into a Raytheon direct labor template. While not impossible, the size
and complexity of this cost proposal worksheet makes a 100% pre-submission audit
extremely difficult.

At the time the instant proposal was submitted, the business area under which the NSLDS
program was performed existed as a quasi-separate financial entity characterized by
separate rates as well as separate processes. In this scenario, the business analyst assigned
to the NSLDS program office was responsible for the pricing ofNSLDS cffOli. The role of
the pricing department was limited to review and approval.

Subsequent to the submission of this proposal, Raytheon has instituted two major changes:
      1. 	       It is now Raytheon lIS policy that all proposal pricing be performed by
                 personnel in the Pricing organization. This results in common practices
                 and procedures being performed by trained pricing personneL
      2. 	       Additionally, lIS has also implemeuted the cOJllpally-wid~ us~ uf PC
                 Pricing, Raytheon's world-class proposal pricing software. The data
                 input requirements of PC Pricing make the type of errors found in the
                 instant proposal impossible to duplicate.

Conclusion:

IG recommendation 1.1: Raytheon 'agrees that clerical errors on the proposal spreadsheet
resulted in a mis-statement of estimated costs equal to the IG analysis of $73,888.83.

IG recommendation 1.2: After reviewing our records, Raytheon can find no instance of a
Trainer being billed to the customer under Schedule C for the instant period. A 1thollgh an
error in pricing was made in the proposal, there was no harm to the Department of
Education; therefore no action need be taken.

IG recommendation 1.3: It is Raytheon's contention that changes in software, pricing
methodology and oversight already taken satisfy the requirements of recol1unendation 1.3.
